OIG Audit Report GR-30-08-001

Office of Justice Programs, State and Local Emergency Preparedness Grant Awarded to the Maryland Department of State Police, Grant Number 2003-DD-BX-0002

Audit Report GR-30-08-001


January 2008
Office of the Inspector General


Executive Summary


 Recognizing that local law enforcement agencies may not be prepared or equipped to respond to large-scale terrorism or emergency events, Congress appropriated $251 million to the Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA) to establish State and Local Emergency Preparedness (SLEP) grants. In 2002, Congress designated the Maryland Department of State Police (MDSP), via a legislative earmark, to receive $11,005,000 in SLEP grant funds. According to the grant application prepared by the MDSP, the award was to be used to improve the interoperability and security of public safety communications and information systems, and purchase vital emergency equipment. 
 We conducted this audit to: (1) determine whether the MDSP adhered to the financial and administrative conditions of the award; (2) ensure that grant expenditures were allowable, supported, and in accordance with applicable laws, regulations, guidelines; and (3) assess grant performance and whether the MDSP achieved the primary goals of the award. 
Our audit found that all examined grant costs were allowable and appropriately supported, and that the MDSP has achieved the overall goals of the grant. However, the MDSP: (1) had not reported accurate expenses and unliquidated obligations on its Financial Status Reports to OJP; and (2) does not uniformly categorize grant costs between its divisions in ways that ensure compliance with approved grant budget cost categories. Our report contains two recommendations to address these issues. We discussed the results of our audit with the MDSP and have included their comments in the report as applicable.







Return to OIG Home Page